                                 SOCIAL SECURITY
MEMORANDUM

Date:   May 12, 2009                                            Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Quick Response Evaluation: Processing of Railroad Worker Disability Claims
        (A-05-09-29119)


        The attached final quick response evaluation presents the results of our review.
        Our objectives were to determine the risks, if any, to the Social Security
        Administration’s Disability Insurance Trust Fund due to allegations related to
        Railroad Retirement Board disability claims from Long Island Rail Road
        employees.

        If you wish to discuss the final report, please call me or have your staff contact
        Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                         S
                                                         Patrick P. O’Carroll, Jr.

        Attachment
QUICK RESPONSE
 EVALUATION
 Processing of Railroad
Worker Disability Claims

      A-05-09-29119




        May 2009
                                  Mission
By conducting independent and objective audits, evaluations and
investigations, we inspire public confidence in the integrity and security of
SSA’s programs and operations and protect them against fraud, waste and
abuse. We provide timely, useful and reliable information and advice to
Administration officials, Congress and the public.

                                 Authority
The Inspector General Act created independent audit and investigative
units, called the Office of Inspector General (OIG). The mission of the OIG,
as spelled out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and
    proposed legislation and regulations relating to agency programs
    and operations.
   Keep the agency head and the Congress fully and currently informed
    of problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the
    reviews.

                                   Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud,
waste and abuse. We commit to integrity and excellence by supporting an
environment that provides a valuable public service while encouraging
employee development and retention and fostering diversity and
innovation.
                                                                    Background
OBJECTIVE
To determine the risks, if any, to the Social Security Administration’s (SSA)
Disability Insurance (DI) Trust Fund due to allegations related to Railroad
Retirement Board (RRB) disability claims from Long Island Rail Road (LIRR)
employees.

BACKGROUND
The RRB is a Federal agency that administers comprehensive income security
programs for the nation’s railroad employees, retirees, and their families under
the Railroad Retirement (RRA) and Railroad Unemployment Insurance Acts.1
The RRB administers the RRA, which provides for two types of disability
annuities —occupational disability and total and permanent disability (hereafter
referred to as “permanent disability”). Occupational disability benefits, funded
solely by RRB, are paid to workers who are unable to perform the work of their
regular railroad occupation. Permanent disability benefits are paid to workers
who are totally disabled for all types of employment. SSA and RRB use the
same definition of permanent disability, which is more stringent than the criteria
for establishing an occupational disability.2 In addition, both SSA and RRB fund
the RRB permanent disability program.3

An example of an occupational disability situation would be a railroad engineer,
whose work often requires that he climb, bend, stretch, reach, crouch and kneel,
injuring his leg. If, based on medical evidence, the engineer is precluded from
performing these actions, the engineer would be determined to be occupationally
disabled. However, if his condition is not severe enough to prevent him from
performing other substantial gainful work elsewhere in the economy, he would
not meet SSA’s definition of permanent disability.4




1
    In this report, we are only focusing on disability benefits.
2
 The non-medical eligibility for an occupational disability is more stringent than for a permanent
disability. See Appendix B for more information on the eligibility criteria for both programs.
3
    RRB funding comes from a variety of sources, including SSA reimbursement (see Appendix C).
4
  In addition, if an employee is found disabled under the RRA, the RRB will determine whether
the employee is disabled under the Social Security Act to qualify for a period of disability
(disability freeze).


Processing of Railroad Worker Disability Claims (A-05-09-29119)                                      1
DISABILITY WORKLOADS

In September 1983, SSA’s Great Lakes Program Service Center (GLPSC) in
Chicago was given the responsibility for processing railroad workers’ disability
claims.5 The GLPSC-Disability Processing Branch (DPB) serves as a de facto
disability determination services (DDS)6 for this program. The DPB and RRB
process a number of workloads, including the following.

     Dual Eligibility Claim: Relates to a career railroad worker’s claim that
      originated in an SSA field office (see Appendix D).

     Joint Freeze:7 Relates to a career railroad worker’s claim that originated with
      the RRB. The claimant’s medical evidence is reviewed by both SSA and
      RRB for concurrence for a period of disability that may relate to benefits
      under both programs (see Appendix E).

     Unilateral Freeze: Relates to a career railroad worker’s claim that originated
      with the RRB. The claim went through the Joint Freeze process whereby
      RRB coordinates the decision with SSA. In this case, SSA does not agree
      with RRB’s approval, but RRB independently decides to approve the claim
      and fund the disability benefits from its own resources (see Appendix F).

     Single Freeze: Relates to a career railroad worker’s claim that originated
      with RRB. In general, RRB makes an independent decision on the claim
      without SSA’s review of the decision (see Appendix F).8




5
  The GLPSC also performs the other primary missions of a program service center, including
(1) processing Social Security claims and post-adjudicative changes after beneficiaries have
been entitled and (2) performing formal and informal reconsideration of determinations.
6
 DDSs in each State perform disability determinations of claimants' medical eligibility for SSA
programs and ensure that adequate evidence is available to support its determinations.
7
    A “freeze” is a determination of eligibility for permanent disability benefits.
8
 As we discuss later in this section, Single Freeze cases in the 1-percent sample are reviewed
by both agencies as part of the Financial Interchange process.



Processing of Railroad Worker Disability Claims (A-05-09-29119)                                   2
FINANCIAL INTERCHANGE

While RRB and SSA are separate entities, they closely coordinate the financing
of permanent disability benefits. Under the Financial Interchange, SSA
reimburses RRB for permanent disability benefit payments in excess of collected
payroll and income taxes. RRB’s trust fund is reimbursed from SSA’s DI Trust
Fund (see Appendix C).9 The Financial Interchange is based on a 1-percent
sample of railroad workers in the economy, including those receiving SSA’s Title
II disability benefits or RRB’s permanent disability benefits (considered as Title II
equivalent).

LIRR

In September 2008, Federal agents searched the Westbury, New York, RRB
office on Long Island. News articles alleged the RRB made medical
determinations for occupational disability cases based on questionable medical
evidence submitted to the Westbury office by applicants. While SSA does not
reimburse RRB for occupational disability benefits, the allegations highlighted
potential vulnerabilities within the RRB’s overall disability process. Following the
media attention, the RRB initiated changes to the occupational disability process
(see Appendix G).




9
    These amounts are adjusted for certain costs, such as administrative expenses and interest.


Processing of Railroad Worker Disability Claims (A-05-09-29119)                                   3
                                                     Results of Review
We found the risk to SSA’s DI Trust Fund depends on the controls in the SSA
and RRB disability review processes. The two agencies have established
various disability determination processes, each of which has its own risks. In
addition, we found that RRB initiated the occupational and permanent disability
processes with the same medical evidence. Moreover, SSA does not see all of
the cases that will be reimbursed by the DI Trust Fund but instead reviews a
1-percent sample. In this regard, we identified a number of areas related to
program oversight as well as policies and procedures where stronger controls
and better documentation could help mitigate the risk to the DI Trust Fund.

REVIEW OF MEDICAL EVIDENCE
In our review of the RRB disability process, we determined that both RRB and
SSA initially rely on medical evidence developed for an RRB occupational
disability claim. Moreover, SSA does not review all of the permanent disability
decisions made by RRB. Instead, SSA based its financial transfers to RRB on a
1-percent sample of cases reviewed by both SSA and RRB.

SOURCE OF MEDICAL EVIDENCE

RRB and SSA have agreed to provide each other with copies of medical
evidence received in connection with disability claims to avoid duplication of
development. Railroad workers file one application with RRB to qualify for either
occupational or permanent disability benefits.10 In general, RRB starts with this
same medical evidence when making a permanent disability decision under the
Single Freeze process,11 which may lead to SSA’s funding of the disability case.
Moreover, during the Joint Freeze process where SSA also reviews the case,
SSA obtains all medical evidence from RRB rather than independently. Finally,
even if SSA receives an application directly from a railroad worker at a field office
under the Dual Eligibility process, SSA requests from RRB any medical evidence
of record that it may have on former RRB workers. If the medical evidence of
record is complete and sufficient for SSA to make a disability determination, SSA
will rely on the medical evidence received from RRB to make its determination. If
not, SSA will further develop the claim by requesting additional medical evidence
or scheduling a medical examination.


10
  Not all applicants are eligible to receive both types of benefits. It is possible that an individual
does not have enough time with the RRB to qualify for occupational disability but is still eligible for
a permanent disability decision.
11
  A finding of permanent disability requires sufficient evidence that indicates a greater degree of
impairment.



Processing of Railroad Worker Disability Claims (A-05-09-29119)                                       4
As a result, SSA relies on RRB's internal controls over medical evidence for
many of the permanent disability cases that will eventually be reimbursed as part
of the Financial Interchange. This being the case, it is essential SSA ensures
that RRB maintains credible internal controls over its process for collecting this
medical evidence.

SSA REVIEW OF FREEZE DECISIONS

Most career railroad workers’ permanent disability cases are not sent to SSA for
an independent review. As an independent Federal agency, RRB has the
authority under the RRA to make decisions regarding railroad workers’ eligibility
for permanent disability benefits.12 Currently, RRB makes an independent
decision, commonly called a Single Freeze, for approximately two-thirds of
railroad workers’ permanent disability benefit applications that are subject to
reimbursement through the SSA and RRB Financial Interchange. RRB shares
the remaining one-third of the applications with SSA as part of the Joint Freeze
process.13

The one-third of applications shared with SSA under the Joint Freeze includes
sample cases used as part of the Financial Interchange process.14 This sample
comprises cases where the two terminal digits of the railroad workers’ Social
Security number end in “30.”15 As a result, approximately 1 percent of all cases,
whether they were originally slated for a Single Freeze or a Joint Freeze,
undergoes a review by both agencies before being used in the Financial
Interchange process to determine the volume of transfers between SSA and
RRB. For FY 2007, approximately $418 million in monetary transfers through the
Financial Interchange was dependent on a 1-percent sample of permanent
disability cases.16 SSA actuaries stated it is necessary to maintain the same
Social Security number selection criterion from year to year to ensure consistent
treatment regarding periodic revisions of benefits.




12
     Disability decisions are categorized as a Single or Joint Freeze based on set criteria.
13
  In Fiscal Year (FY) 2008, the GLPSC reported it processed approximately 1,956 Joint Freeze
cases from RRB. We did not independently verify this number, and neither SSA nor RRB could
provide additional support for the number of Joint Freeze awarded versus denied.
14
     See Appendix C for more on the Financial Interchange process.
15
 SSA, Program Operations Manual System (POMS) DI 44001.025, § A.4.b—Joint
Determination Cases.
16
  In the FY 2007 determination, the Financial Interchange sample contained 329 items related to
an estimated universe of 34,312 permanently disabled cases. We did not independently verify
these numbers.


Processing of Railroad Worker Disability Claims (A-05-09-29119)                                5
PROGRAM OVERSIGHT
We identified a number of areas where stronger program oversight could help
mitigate the risk to the DI Trust Fund, including greater monitoring of (1) Dual
Eligibility decisions and (2) sample cases used as part of the Financial
Interchange.

OVERSIGHT OF GLPSC-DPB DECISIONS

DPB performs the same functions of a State DDS but is not subject to the same
requirements. In addition, SSA’s guidance is inconsistent on the oversight of the
DPB workload. DPB has jurisdiction for disability claims filed by railroad
workers.17 These cases are adjudicated in the DPB and approved by the
Regional Medical Consultant Staff (RMCS).18 However, unlike the DDSs, the
DPB claims are not subject to quality assurance (QA) reviews.19 QA reviews
involve an independent review of a sample of disability decisions. These reviews
determine whether individual State DDSs perform acceptably in terms of
decisional accuracy and documentation requirements.

During our review, we also found contradictory policies regarding GLPSC’s
responsibilities to perform QA reviews for railroad workers’ claims. One SSA
POMS section requires that SSA perform quality reviews of railroad workers’
claims.20 Specifically, POMS states, “Periodically, SSA does a [QA] review of the
Social Security disability determinations on railroad claims in the Disability
Quality Branch (DQB) in the Chicago Office of Regional Program and Integrity
Reviews.”

Another POMS section indicates that the railroad workers’ claims will not
routinely be reviewed even though they are selected for quality review.21
Specifically this reference states, “Since the Chicago [RMCS] will have already
evaluated the medical evidence, impairment severity, and when applicable,
residual functional capacity, it will not routinely review railroad claims selected for
quality review.” Moreover, in a March 1988 memorandum, SSA’s Associate
Commissioner for Program and Integrity Reviews22 issued a directive to
17
   SSA, POMS, DI 44001.005, § A—General. This section also indicates that the GLPSC has
jurisdiction over disabled dependents of deceased career railroad workers.
18
  RMCS staff is contracted by the GLPSC to perform medical reviews of disability claims. In
general, RMCS staff also performs QA reviews at State DDSs.
19
     SSA, POMS, DI 30005.005—Types of Federal Quality Reviews.
20
  SSA, POMS, GN 04442.001—Overview-Background of Quality Assurance Review of Railroad
Disability Claims.
21
     SSA, POMS, GN 04442.110, § A.2—Medical Review Policy.
22
     This component is now called the Office of Quality Performance.


Processing of Railroad Worker Disability Claims (A-05-09-29119)                               6
discontinue ongoing quality reviews of railroad disability determinations at the
GLPSC. However, the directive indicated the ongoing quality reviews were to be
substituted with short-term reviews twice a year. GLPSC representatives stated
there are no records of any short-term reviews being done or any directives
concerning them.

The least amount of oversight by SSA relates to the Dual Eligibility cases23 since
only SSA staff adjudicates these claims for railroad workers. By comparison, the
Joint Freeze claims are reviewed by medical consultants at both SSA and RRB.
Because SSA does not perform QA reviews, it lacks assurance the Dual
Eligibility claims are being processed and approved in accordance with SSA’s
guidelines. We believe SSA should subject its own operations to the same level
of review used at the State DDS level. SSA management said the Agency is
initiating steps for an ongoing quality review.

FINANCIAL INTERCHANGE

The Financial Interchange sample data have not been reviewed for about
7 years. The last review was completed in June 2002 and related to the 1996 –
1997 Financial Interchange determinations. Such reviews assess the accuracy
of non-medical issues, such as benefit calculations, entitlement, work deductions,
and clerical errors. GLPSC conducted the June 2002 review and examined
540 cases,24 of which 55 had errors affecting the Trust Funds for historical
actions taken through the 1997 determination, for a case accuracy rate of
89.8 percent.25 According to the RRB Actuary, the 540 cases represented a
judgmental sample of more difficult cases with a greater potential for error and
consisted largely of retirement and survivor cases charged to the Old-Age and
Survivors Insurance Trust Fund. Neither the GLPSC staff nor Office of the
Actuary staff knows when the next Financial Interchange review will take place.
Given the importance of this process in verifying the underlying transfers from
SSA’s Trust Funds, the Agency should establish a schedule for ensuring these
reviews regularly occur.




23
  In FY 2008, the DPB reported it processed approximately 1,237 dual eligibility cases. We did
not independently verify this number.
24
     The 540 sample cases included retirement and disability cases.
25
  According to the review document, about half of these errors represented adjustment amounts
(before inflation) of less than $100. Overall, SSA owed RRB approximately $19,000 as a result of
the detected errors. The review also covered years outside the scope of the review and identified
another $57,000 due to SSA, for a net effect (with the above amount) of $38,000 due to the SSA
Trust Funds.


Processing of Railroad Worker Disability Claims (A-05-09-29119)                                  7
POLICIES AND PROCEDURES
We identified a number of areas where improved policies and procedures could
help mitigate the risk to the DI Trust Fund, including reviews of (1) the disability
Memorandum of Understanding (MOU) between SSA and RRB, (2) POMS, and
(3) RRB changes to the occupational disability process.

DISABILITY AND FINANCIAL INTERCHANGE MOUs

We found the disability process documented in an MOU between SSA and RRB
had not been modified since 1987, and portions of the MOU were not being
followed during our review period. For example, we learned that RRB was not
sharing management information with SSA related to its decision to grant
Unilateral Freeze benefits to railroad workers denied by SSA.26 According to the
1987 MOU with SSA, RRB may make a Unilateral Freeze decision if an
agreement with SSA cannot be reached. The MOU also states that RRB must
notify SSA when a Unilateral Freeze decision is made. In FYs 2007 and 2008,
RRB estimates it granted 85 and 82 Unilateral Freezes, respectively, at the initial
and reconsideration levels, of the total initial decisions of 5,786 for FY 2007 and
5,214 for FY 2008.27

Since we began our review, RRB has updated it procedures regarding its
notification of Unilateral Freeze cases. In a January 20, 2009 Office of Programs
Procedure Transmittal, RRB stated it will formally advise SSA of its decision
regarding Unilateral Freeze cases, including any additional evidence or
supporting rationale it may choose to provide.

We also found that the disability MOU was not consistent with other RRB
documents. The MOU states, “Unilateral and single disability freeze claims are
awarded by the RRB or the RRB appeals process and are certified solely from
RRB funds.” However, in our discussions with RRB staff involved in the
Financial Interchange process, we were told that this MOU statement is incorrect,
and SSA reimburses RRB for the Single Freeze awards. While we were able to
confirm this statement using other internal documents from RRB, we were not
able to find specific mention of Single or Unilateral Freezes in the Financial
Interchange document.28 Actuary staff at both SSA and RRB agreed that the




26
  Any disability benefits rendered to a railroad worker because of an approval of a Unilateral
Freeze is paid by RRB, and SSA should not reimburse RRB through the Financial Interchange
process for those benefits.
27
     These figures were provided by RRB. We did not independently verify these numbers.
28
     See Appendix C for some of the language in the Financial Interchange document.


Processing of Railroad Worker Disability Claims (A-05-09-29119)                                  8
Financial Interchange itself does not have a formal MOU outlining the
interchange procedures, to include issues regarding which cases SSA has
agreed to reimburse. The staff stated that the annual document serves as the
MOU.

A periodic review of the disability MOU by both agencies may detect other issues
that may be in need of correction. Moreover, a second MOU to cover the
Financial Interchange process may also be useful since it could document the
existing process for calculating the amounts interchanged, highlight past and
present changes due to new legislation and other factors, and ensure a single set
of procedures is readily available to current and future staff responsible for the
Financial Interchange process. SSA management stated that the Agency has
taken steps to (1) clarify and update the Financial Interchange process;
(2) review and update policies and procedures, including the MOU; and
(3) initiate an information exchange agreement with RRB.

POMS

The POMS sections describing the DPB processing of railroad claims was not
current at the time of our review. A clear set of updated and published
procedures will be necessary if SSA is to hold the DPB accountable in future QA
reviews.29 Moreover, POMS is a public document that makes the SSA process
more transparent to interested parties, including the RRB. The DPB has a
business process document for performing its workload. However, the DPB
business process has not been formalized and incorporated into the POMS.
While the field office procedures related to railroad workers was updated in 2008,
an SSA representative acknowledged the GLPSC-related POMS had not been
updated since March 1986. The SSA representative stated she was using the
DPB business process document to update the DPB disability process in the
POMS. SSA management noted that the Agency has initiated steps to review
and update policies and procedures, including POMS, and train personnel on the
identification and proper handling of these claims.

CHANGES TO THE OCCUPATIONAL DISABILITY PROCESS

RRB has initiated greater controls over portions of the occupational disability
review process but has not modified the permanent disability review process. As
a result of the LIRR allegations, RRB is reevaluating its controls over the
occupational disability review process and has implemented some changes. On
October 21, 2008, the Chairman to the RRB issued the transcript of the Board’s
order to consider several recommendations concerning occupational disability
claims, including a recommendation that “…the RRB will develop and implement
a program to conduct independent medical reviews of present and future

29
  As noted earlier, some POMS sections are contradictory on such issues as the need for QA
reviews.



Processing of Railroad Worker Disability Claims (A-05-09-29119)                              9
occupational disability applications. The independent medical evaluators must
be RRB-approved physicians, not specifically labor or management affiliates,
who are familiar with railroad injuries.”

Other recommendations relating to the LIRR allegations include (1) reevaluating
dubious disability claims, (2) greater oversight controls over the Long Island RRB
office and its employees, (3) program changes that would trigger internal
investigations, and (4) stringent reviews of management employees accessing
the occupational disability program.30

RRB staff informed us they were not aware of any adjustments to the
occupational or permanent disability process beyond the LIRR employees.31 We
believe SSA may benefit from discussions with the RRB concerning these
changes to determine whether they should be expanded beyond the LIRR
employees to the rest of the disability process, since this same medical evidence
is used to initiate both occupational and permanent disability claims. SSA
management stated the Agency has an initiative to possibly reopen those LIRR
cases potentially impacting SSA’s DI Trust Fund.




30
     See Appendix G for more information on these recommendations to the RRB.
31
  RRB staff also stated that any decision on program changes would most likely occur after the
completion of the multiple audits of their program. At the time of our review, in addition to our
SSA Office of the Inspector General (OIG) review, RRB’s disability process was being reviewed
by the RRB OIG and the Government Accountability Office.


Processing of Railroad Worker Disability Claims (A-05-09-29119)                                 10
                            Matters for Consideration
Railroad disability claims received by SSA often started as part of the
occupational disability application process in RRB, the same process involved in
the recent allegations involving LIRR employees. As a result, the risk to the DI
Trust Fund is dependent on the controls in SSA and RRB’s disability review
processes. Our review has identified a number of areas related to program
oversight as well as policies and procedures where stronger controls could help
mitigate the risk to the DI Trust Fund. We believe SSA could improve the
underlying policies and procedures to ensure they are well documented, adhered
to, and periodically reviewed by the two agencies. Moreover, we believe SSA
should consider increased oversight of the SSA/RRB disability determination and
Financial Interchange processes to ensure consistency and accuracy between
the two agencies. SSA management noted the Agency is initiating steps in a
number of these areas to improve the overall process.




Processing of Railroad Worker Disability Claims (A-05-09-29119)               11
                                            Appendices
APPENDIX A – Acronyms
APPENDIX B – Railroad Retirement Board
APPENDIX C – Social Security Administration and Railroad Retirement Board Financial
             Interchange Process
APPENDIX D – Railroad Worker Claim Processing – Social Security Administration
APPENDIX E – Railroad Worker Claim Processing – Joint Freeze
APPENDIX F – Railroad Worker Claim Processing – Railroad Retirement Board
APPENDIX G – Occupational Disability Process Changes
APPENDIX H – Scope and Methodology
APPENDIX I – OIG Contacts and Staff Acknowledgments




Processing of Railroad Worker Disability Claims (A-05-09-29119)
                                                                  Appendix A

Acronyms
    DCM                 Disability Claims Manual

    DDS                 Disability Determination Services

    DI                  Disability Insurance

    DPB                 Disability Processing Branch

    DQB                 Disability Quality Branch

    FO                  Field Office

    FY                  Fiscal Year

    GLPSC               Great Lakes Program Service Center

    LIRR                Long Island Rail Road

    MOU                 Memorandum of Understanding

    OASI                Old-Age and Survivors Insurance

    OIG                 Office of the Inspector General

    OQP                 Office of Quality Performance

    RMCS                Regional Medical Consultant Staff

    POMS                Program Operations Manual System

    QA                  Quality Assurance

    RRA                 Railroad Retirement Act

    RRB                 Railroad Retirement Board

    SSA                 Social Security Administration

    SSEB                Social Security Equivalent Benefit




Processing of Railroad Worker Disability Claims (A-05-09-29119)
                                                                             Appendix B

Railroad Retirement Board
The Railroad Retirement Board (RRB), as an independent agency in the Executive
Branch of the Government, is responsible for administering the Railroad Retirement
(RRA) and Railroad Unemployment Insurance Acts. The RRB is headed by three
Board Members appointed by the President, with the advice and consent of the Senate.
The Board Members’ terms of office are 5 years and are scheduled to expire in different
years. The role of the RRB includes determining and paying benefits under the railroad
retirement, survivor and disability insurance programs. The RRB has a field structure
comprised of 53 offices nationwide, and it is headquartered in Chicago, Illinois.

The RRB was created by 1930’s legislation establishing a retirement benefit program for
the nation’s railroad workers. Legislation was enacted in 1934, 1935, and 1937 to
establish a railroad retirement system separate from the Social Security Administration
(SSA) program legislated in 1935. While the railroad retirement system has remained
separate from the SSA system, the two systems are closely coordinated with regard to
earnings credits, benefit payments, and taxes. The financing of the two systems is
linked through a Financial Interchange under which, in effect, the portion of railroad
retirement annuities that is equivalent to SSA benefits is coordinated with the SSA
system (see Appendix C for more information on the Financial Interchange).

Legislation enacted in 1974 restructured railroad retirement benefits into two tiers to
coordinate them more fully with SSA benefits. Tier One benefits are based on
combined SSA and RRB credits, using SSA’s Old-Age, Survivors and Disability
Insurance benefit formulas.1 Tier Two benefits are based on railroad service only and
these benefits are comparable to the private pensions paid over and above SSA
benefits in other industries. RRB and SSA share jurisdiction over the payment of
disability benefits.




1
 Railroad employees are taxed under Tier One at the same SSA and Medicare rates as employees in
other industries.


Processing of Railroad Worker Disability Claims (A-05-09-29119)                                   B-1
OCCUPATIONAL DISABILITY BENEFITS
The occupational disability program is funded entirely from the RRB’s trust fund, which
is funded from taxes imposed on all railroad employees and railroad companies. SSA
Trust Fund money or revenues are not used to fund the occupational disability program.

To receive an RRB occupational disability annuity, a worker must be unable to work in
his or her regular job. Specifically, the worker must

      have a current connection with the railroad industry; and

      have 240 months of creditable railroad service, or 120 months of creditable
       railroad service and be at least 60; and

      be permanently disabled for work in his or her regular railroad occupation.

TOTAL AND PERMANENT DISABILITY BENEFITS
Permanent disability benefits are paid to workers who are totally disabled for all types of
employment. RRB uses SSA’s definition of permanent disability in deciding claims.
The RRB total and permanent disability program is funded by both SSA and RRB.

To receive a total and permanent disability annuity, a worker must be totally disabled for
all work. Specifically, the worker must

      stop all work; and

      have 120 months of creditable railroad service, or at least 60 months of
       creditable railroad service after 1995; and

      be permanently disabled for any kind of regular work.




Processing of Railroad Worker Disability Claims (A-05-09-29119)                         B-2
                                                                                   Appendix C

Social Security Administration and Railroad
Retirement Board Financial Interchange Process
The Financial Interchange process places the Social Security Administration’s (SSA)
Disability Insurance (DI) Trust Fund in the same position it would be in if railroad service
was covered by the SSA program instead of the Railroad Retirement Board (RRB)
program.1 Every year, estimates are made of the additional benefits and administrative
expenses that would have been paid from the DI Trust Fund as well as the additional
payroll taxes and income taxes that would have been received by the Trust Fund. The
amounts transferred are the result of a complex statistical projection summarized in a
document prepared by the RRB with input from SSA and the Centers for Medicare &
Medicaid Services.2

For example, as of September 2007, the RRB’s Social Security Equivalent Benefit
(SSEB)3 Account was due approximately $417.6 million from the DI Trust Fund.4 A
breakout of this amount is provided in Table C-1.




1
  This is also true with the Old-Age and Survivors Insurance (OASI) Trust Fund, but in this review we are
focusing on the DI Trust Fund.
2
 The latest report is RRB-SSA-CMS Financial Interchange: Calculations for Fiscal Year 2007 With
Respect to OASI, DI, and [Health Insurance] Trust Funds, Summary and Documentation, 56th
Determination, RRB, 2008.
3
 The SSEB Account, established in Fiscal Year (FY) 1985, pays the portion of railroad retirement
benefits equivalent to a SSA benefit from various income sources related to these benefits.
4
    This includes interest through June 2, 2008.


Processing of Railroad Worker Disability Claims (A-05-09-29119)                                       C-1
   Table C-1: Calculation of SSA DI Trust Fund Transfer to RRB SSEB Account
     Type of Balance                                              Description                                      Subtotal                           Total
                              September 30, 2006 Amount Due
 Prior Balance                                                                           $431 million
                              to RRB
                                                 1
 Plus RRB Expenses            Benefit Payments                         $664.4 million
                              Administrative Expenses2                   $8.6 million
                              Interest                                  $33.9 million   $706.9 million
 Less RRB Revenues            Payroll Taxes3                           $282.7 million
                              Income Taxes4                                $6 million ($288.7 million)
 Less Prior Transfer to       Transferred to SSEB Account on
                                                                                      ($445.2 million)
 RRB                          June 4, 2007
                              September 30, 2007 Amount Due
 Amount Due to RRB            to RRB (includes $13.6 million                            $417.6 million
                              in interest through June 2, 2008)
Notes: (1) Estimated benefit amounts that would have been payable if the railroad workers were
            receiving benefits from SSA.
        (2) Estimated administrative costs to maintain the benefit program.
        (3) Estimated payroll taxes collected from railroad workers.
        (4) Estimated income taxes liability on benefits paid to railroad workers.

SSA DI Trust Fund transfers to RRB have increased over the years. See Figure C-1 for
SSA transfers over the past 15 years.

                             Figure C-1: DI Trust Fund Transfers from SSA to RRB
                                        (Financial Interchange Amounts by Year of Transfer)

                                      $450
                                      $400
                                      $350
                Millions of Dollars




                                      $300
                                      $250
                                      $200
                                      $150
                                      $100
                                      $50
                                       $0
                                             1994

                                                    1995

                                                           1996

                                                                  1997

                                                                         1998

                                                                                1999

                                                                                       2000

                                                                                              2001

                                                                                                     2002

                                                                                                            2003

                                                                                                                   2004

                                                                                                                          2005

                                                                                                                                 2006

                                                                                                                                        2007

                                                                                                                                               2008




                                                                                  Calendar Year

       Note: Reduced amounts in 1996 and 2001 related to adjustments due to military credits.




Processing of Railroad Worker Disability Claims (A-05-09-29119)                                                                                               C-2
The Financial Interchange provides SSA with the tax revenues that would otherwise be
collected directly from railroad workers, while SSA provided to RRB the funds that
would otherwise be paid directly to railroad beneficiaries.5 When benefit payments
exceed payroll and income taxes, the difference, with an allowance for interest and
administrative expenses, is transferred from the DI Trust Fund to the SSEB Account. If
taxes exceed benefit payments, a transfer would be made in favor of the DI Trust Fund.

The Financial Interchange is based on a 1-percent sample of railroad workers. The
sample control group is constant in that only railroad workers with a certain two-digit
identifier (“30”) in their Social Security number are in the sample. In FY 2007, the DI
Trust Fund transfer to RRB was based on a 1-percent sample that included 329 cases
associated with a universe of 34,312 permanent disability cases.6 Benefit payments per
case were estimated from the 329 sample items and then applied to RRB’s entire
universe of 34,312 permanent disability cases. RRB actuary staff noted that the sample
and universe were expected to be proportional, noting any significant variances would
be investigated.

For example, the FY 2007 Financial Interchange document defines the benefit
calculation as follows.

          The railroad beneficiary universe for the calendar year, to which sample
          amounts are inflated, consists of all accounts on which a monthly benefit was
          in force (payable or withheld) under the Railroad Retirement Act (RRA) for at
          least one month of the year and on which a monthly benefit might have been
          payable under the [SSA] eligibility conditions. Also included are those on
          which an SSA lump sum based on death in the year would have been
          payable. The corresponding one-percent sample consists of cases carried
          over from earlier determinations and new cases in the universe with employee
          SSA account numbers ending in the digits “30.”

The 65-page FY 2007 Financial Interchange document contains extensive calculations,
estimates and projections. In addition, SSA provides input based on its own program
experience. For example, SSA prepares unit cost factors for the DI program related to
the maintenance of earnings accounts, initial enrollment of wage earners, initial
enrollment of auxiliaries, and maintenance of the rolls.




5
  RRB has multiple sources of funding to pay the Tier One (SSA equivalent benefits) and Tier Two
benefits, including payroll taxes, Financial Interchange transfers, the National Railroad Retirement
Investment Trust transfers, federal income taxes, interest on investments and general appropriations.
6
    We did not independently verify these numbers.


Processing of Railroad Worker Disability Claims (A-05-09-29119)                                         C-3
                                                                                                                                           Appendix D

Railroad Worker Claim Processing – Social
Security Administration

                                                               Railroad Worker


                                         Worker with both Federal Insurance Contributions Act taxes
                                         and railroad earnings applies for Title II Disability benefits.1

                                   Field Office reviews claim against non-medical eligibility requirements.2
                                          Does claimant meet non-medical eligibility requirements?


               No                                                                                                    Yes


                                                  Non-career Railroad3
                                                                                                                       Career Railroad4
   Claimant is denied a Title II       Claims are processed the same as all other
                                                                                                      Claimant is eligible for Title II benefits or a period
        disability benefit.              claims and are not coordinated with the
                                                                                                           of disability freeze and RRB benefits.
                                            Railroad Retirement Board (RRB).

                                       Request local State Disability Determination                                 Dual Eligibility5
                                        Services (DDS) perform development for                       Claims are adjudicated by the SSA, Great Lakes
                                                  the medical decision.                               Program Service Center-Disability Processing
                                                                                                      Branch (DPB) and the decision is coordinated
                                                                                                                        with RRB.
                                              Social Security Administration
                                               (SSA) makes a decision to                           Notify RRB of Dual Eligibility claim and request medical
                                                  approve/deny claim.                              evidence if a current or prior claim was filed with RRB.

                                                                                                            Does RRB have a current or prior claim?

                                                                               No                                                               Yes

                                                          A prior claim was not filed with RRB.                         A prior or recent claim was filed with RRB. RRB
                                                          RRB has no recent medical evidence.                                      has recent medical evidence.



                                     Obtain medical evidence from treating sources and ask local                            DPB requests medical evidence from RRB.
                                     State DDS for assistance with obtaining a consultative exam.6                         Medical evidence is reviewed for sufficiency.6

                                                                                                                                   Does RRB’s medical evidence
                                                                                                                                   sufficiently meet SSA medical
                                            DPB makes a decision to approve/deny claim.7                                               eligibility requirements?

                                                                                                                              No                                     Yes
                                         DPB informs RRB of the allowance/denial      decision.8




Processing of Railroad Worker Disability Claims (A-05-09-29119)                                                                                                             D-1
          Railroad Worker Claim Processing – SSA Notes
1. There are two ways a career railroad worker may file a disability application: Dual Eligibility benefits
   with the Social Security Administration (SSA) or a railroad disability annuity application with the
   Railroad Retirement Board (RRB), which is deemed an SSA application for freeze only purposes.
   See SSA, Program Operations Manual System (POMS), DI 44001.010—Initial Processing.

2. Applications and non-medical development are initiated in the SSA field office (FO). Information
   provided by the claimant to the FO during the disability interview is critical to the Disability
   Determination Services' (DDS) medical development. See SSA, POMS, DI 11005.001 Introduction—
   Disability Interviews. At this time, SSA will also consider an individual’s eligibility for Supplemental
   Security Income payments, which is unrelated to the RRB program.

3. If the claimant is a non-career railroad worker as defined in Note 5, the disability claim is processed at
   an SSA FO in the same manner as non-railroad cases. See SSA, POMS, DI 11050.010—Jurisdiction
   of Disability Applications Filed by Non-Vested Railroad Employees and Auxiliary Dependent Railroad
   Annuitants.

4. A worker is considered career railroad if he or she has at least 120 months of railroad service
   (or 60 months after December 31, 1995), or has been awarded a retirement or disability annuity
   under the Railroad Retirement Act. See SSA, POMS, DI 11050.005, § A—Categories of Railroad
   Related Claims.

    The Great Lakes Program Service Center’s (GLPSC) Disability Processing Branch (DPB) has
    jurisdiction of claims involving career railroad workers and dependent railroad survivor annuitants. If
    one of these two criteria is not met, the case should go to the DDS in the claimant’s State of
    residence. See GLPSC-DPB, Training Career Railroad cases 2008—Dual Eligibility Claims, page 4.

5. After a FO action, a disability claim that fits the career railroad criteria is then forwarded to DPB
   instead of the DDS. After making the decision, DPB routes Title II allowance determinations to the
   GLPSC module for effectuation. However, DPB returns Title II denials and all Title XVI
   determinations to the FO for effectuation. See SSA POMS DI 11050.015—Jurisdiction of Disability
   (DIB) and Freeze Applications for Career Railroad (RR) Employee and Surviving Dependent RR
   Annuitant.

6. The DPB contacts the RRB and requests copies of all medical, vocational, and any other pertinent
   evidence from the RRB file. If evidence is insufficient to adjudicate the current disability claim(s), the
   DPB develops the medical evidence directly from the treating sources. The DPB contacts the
   appropriate State DDS before adjudicating the claim if a consultative examination is needed. See
   SSA, POMS, DI 11050.045, § B—GLPSC-DPB Actions in Developing Medical Evidence for Railroad
   Cases.

7. Coordination cannot be completed until the DPB disability examiner and SSA medical consultant sign
   the Disability Determination Transmittal (SSA-831). At this point, a Notice of Disability Determination
   and Transmittal (SSA-415) is prepared and sent to RRB advising them of the decision. See SSA,
   POMS, DI 44001.020—Other Communications and Coordination with RRB.

8. A copy of the medical and non-medical evidence supporting the DPB decision is also sent to RRB. If
   no answer is received from RRB in 30 days, DPB will effectuate the decision. See SSA, POMS, DI
   44001.020—Other Communications and Coordination with RRB.




Processing of Railroad Worker Disability Claims (A-05-09-29119)                                           D-2
                                                                                                                        Appendix E

Railroad Worker Claim Processing – Joint
Freeze
                                                                       Railroad Worker


                                                        Railroad Retirement Board (RRB) pays claimant
                                                     occupational or total and permanent disability benefits.1


                                                       Joint Freeze2 disability decisions are coordinated
                                                         with the Social Security Administration(SSA).

                                                   RRB makes a Joint Freeze decision. Case folder is sent to
                                                    the SSA, Great Lakes Program Service Center-Disability
                                                    Processing Branch (DPB) for review of the RRB decision.

                                                                 Does SSA agree with the
                                                            RRB approval or denial of Joint Freeze?


                      Yes                                                                   No

           DPB signs SSA-831, Disability                                    DPB does not sign the SSA-831,
            Determination Transmittal.                                     Disability Determination Transmittal.


     Is the RRB-DPB decision to grant or deny?                                   RRB reviews DPB’s findings.


                                                                       Conflict or Unresolved Conflict Case:6 Does
          Grant                   Deny                                  RRB agree with SSA’s full decision and/or
                                                                           submit additional evidence to SSA?
                          RRB and SSA denial
                        letters sent to claimant
                           with appeal rights.3
                                                                 Yes                                                   No
     Period of Disability:4
  Disability onset date period
   of eligibility established.

                                                                                    RRB can choose to resolve the           RRB can choose to grant
 Benefits are funded within the                                                     issue via the rebuttal process.8         a Unilateral Freeze.9
  Financial Interchange (see
        Appendix C).5
                                                                                                                        Benefits are not funded by SSA
                                                       RRB returns the case to                                          within the Financial Interchange.
                                                          DPB for review.7




Processing of Railroad Worker Disability Claims (A-05-09-29119)                                                                                   E-1
Railroad Worker Claim Processing – Joint Freeze Notes
1. Disability awards are based on either occupational disability or total and permanent disability. See
   Appendix F for a flowchart on this process.

2. Joint Freeze decisions protect certain railroad employees and their families against the possible
   adverse effect of independent and/or conflicting disability freeze decisions made by two agencies.
   Joint decisions also eliminate any potential administrative problems for both agencies because of
   uncoordinated decisions. See Railroad Retirement Board (RRB), Disability Claims Manual (DCM),
   Section 6.7.1—Introduction to Joint Freeze.

3. In Joint Freeze decisions, a Social Security Administration (SSA) letter and an RRB denial letter
   with appeal instructions are sent to claimants. See RRB, DCM, Section 6.4.6—Disability Freeze
   Notices.

4. The Great Lakes Program Service Center-Disability Processing Branch (DPB) must verify the
   accuracy of the disability onset date, if an allowance is granted. See SSA, Program Operations
   Manual System (POMS), DI 44001.025—Joint Determination Cases. RRB and SSA may agree to
   grant a disability freeze, but there are times when a conflict exists as to the appropriate disability
   onset date. While the agencies try to resolve the conflict, if one still remains, the RRB will use the
   RRB’s own date—for purposes of taxation and Medicare determinations. However, the benefits are
   funded by SSA via the Financial Interchange starting with the SSA onset date. See RRB, DCM,
   Section 6.7.5—RRB/SSA Disability Onset Date Conflict In Joint Freeze Decisions.

5. The purpose of the Financial Interchange is to place SSA’s Trust Funds in the same position they
   would be in if railroad service were covered by the SSA program instead of the RRB program. See
   Appendix C for more on the Financial Interchange.

6. A conflict case is a Joint Freeze case in which SSA either believes there is insufficient evidence to
   make a determination, or disagrees with RRB’s determination. An unresolved conflict case is a
   case in which, after RRB submits additional evidence and/or a supporting rationale for its
   determination, the DPB still believes there is insufficient documentation or still disagrees with RRB's
   determination. See SSA, POMS, DI 44095.001—Overview.

7. The DPB reviews the decision for concurrence. Any differences between agencies are worked out
   before the DPB representative certifies the decision on the Disability Determination Transmittal
   (SSA-831). See RRB, DCM, Section 6.7.4—Making Joint Decisions.

8. There is a three-level rebuttal process when the RRB decision differs with the proposed decision of
   the DPB or with the request by the DPB for additional documentation. The first level rebuttal is
   RRB to the DPB, the second level rebuttal is RRB to the Chicago Region’s Disability Quality
   Branch, and the third level rebuttal is RRB to SSA’s Office of the Associate Commissioner for
   Quality Performance (formerly the Office of the Associate Commissioner for Program and Integrity
   Reviews). See SSA, POMS, DI 44095.001, § F—Description of Formal Rebuttal Process.

9. Unilateral claims are awarded by the RRB or the RRB reconsideration process. These claims are
   paid solely from RRB funds.




Processing of Railroad Worker Disability Claims (A-05-09-29119)                                        E-2
                                                                                                                                              Appendix F

Railroad Worker Claim Processing – Railroad
Retirement Board

                                                                                  Railroad Worker


                                                               Worker files an application with RRB for disability benefits.


                                                        RRB reviews claims against non-medical eligibility requirements.
                                                       Does the claimant meet RRB non-medical eligibility requirements for
                                                                           occupational disability?1


                                     Yes                                                                                       No

       Does the claimant meet RRB medical eligibility requirements?2                                    Evaluate for RRB total and permanent disability.3


                                                                                                  Does claimant qualify for RRB total and permanent disability?
                   Yes                            No

      RRB occupational disability            Claimant is denied
      annuity is awarded. Benefits           disability benefits.5                                                Yes                              No
         are funded by RRB.4
                                             RRB denial letter is
                                             sent toclaimant with                                      RRB Disability annuity is         Claimant is denied
                                                appeal rights.                                         awarded. Benefits are             Disability benefits.
                                                                                                       initially funded by RRB.
                                                                                                                                     RRB denial letter is sent to
         DetermineTotal and Permanent Disability Freeze.6
                                                                                                                                     claimant with appeal rights.


             Joint Freeze:7                                             Single Freeze:
            Claims require a                                         Claims only require a
          RRB-SSA joint decision.                                      decision by RRB.

    Joint freeze decisions are sent to the                       Grant                   Deny                    RRB denial letter is sent to claimant
    Social Security Administration (SSA)                                                                                with appeal rights.
    Great Lakes Program Service Center,
      Disability Processing Branch for
                                                                Benefits are funded by both SSA
     coordination. See the Appendix C
                                                                 and RRB within the Financial
        on the Joint Freeze process.8
                                                                 Interchange (see Appendix C
                                                                  on the Financial Interchange
                                                                            process).9




Processing of Railroad Worker Disability Claims (A-05-09-29119)                                                                                                     F-1
 Railroad Worker Claim Processing – Railroad Retirement
                      Board Notes
1. Non-medical and vocational factors are considered when determining the ability of the employee to
   perform his or her regular railroad occupation. See Railroad Retirement Board (RRB), Disability
   Claims Manual (DCM), Part 5, Non-Medical and Vocational Factors, Section 5.1.1—Purpose of
   Chapter.

2. Medical evidence is furnished by the claimant. RRB may also ask the claimant to be examined at
   RRB’s expense if more evidence is needed to make the medical determination or to resolve conflicts
   or differences in evidence already on file. See RRB, Employee Disability Benefits, Form RB-1d (03-
   08).

3. The annuity for total and permanent disability is payable under the full retirement age for any
   employee with at least 120 months of railroad service, or with 60 months of railroad service after
   1995, as long as the individual's combined credits for work under SSA and the RRB program meet
   the eligibility requirements for SSA disability benefits.

4. Many employees who are disabled for all employment are initially awarded occupational disability
   annuities to expedite payments.

5. The RRB sends a notice explaining why disability benefits were denied.

6. Joint Freeze cases are claims for disability filed with RRB by a career railroad worker. See SSA,
   Program Operations Manual System (POMS), DI 44001.001—Introduction.

7. Joint Freeze disability decisions are made for career railroad employees when there is potential
   entitlement to SSA benefits. A joint decision is made in one of the following situations: (a) the
   employee does not have a current connection with the railroad industry; (b) the employee has
   sufficient wage quarters to be eligible for a SSA Disability Insurance benefit as of the alleged quarter
   of disability onset; (c) SSA reports wages of over $5,000 but does not identify the quarters of
   coverage for that year; or (d) the case is included in the Financial Interchange sample.

8. Joint Freeze cases are reviewed by the Great Lakes Program Service Center’s Disability Processing
   Branch to ensure the freeze decision was made based on SSA program standards. See SSA,
   POMS, DI 44001.001—Introduction. See Appendix E for more on this process.

9. The purpose of the Financial Interchange is to place SSA’s Trust Funds in the same position they
   would be in if railroad service were covered by the SSA program instead of the RRB program. See
   Appendix C for more on the Financial Interchange.




Processing of Railroad Worker Disability Claims (A-05-09-29119)                                          F-2
                                                                         Appendix G

Occupational Disability Process Changes
On October 20, 2008, the Railroad Retirement Board issued Board Order 08-63 to
implement five recommendations related to the Long Island Railroad (LIRR) and its
employees.


                                   Board Order 08-63
               Implementation Plan for Long Island Employers
On October 10, 2008, the three Board Members met with Sen. Schumer, Cong. Bishop
and staff from other members of the New York Congressional Delegation. The Board
Members agreed to consider several recommendations concerning occupational
disability claims. The Board has adopted and will implement five recommendations.
These five recommendations relate solely to the Long Island Rail Road and its
employees who file for an occupational disability annuity or who are currently receiving
an occupational disability annuity.

To increase oversight of new occupational disability applications, the Railroad
Retirement Board (RRB) will establish a sub-unit within the initial section of the disability
division. This sub-unit will consist of two [General Schedule]-11 disability examiners
who will be responsible for adjudicating all new Long Island occupational disability
applications. Centralizing this function will allow the examiners to more easily detect
any unusual patterns that may occur and will facilitate data gathering that will be
essential after the recommendations are implemented.

The Director of Programs will conduct a cost analysis to cover the implementation of
these recommendations. Moreover, she will be directed to submit to the Board a
monthly status report on the implementation of these recommendations.

A description of the implementation plan for each recommendation follows.

Recommendation 1: The RRB will develop and implement a program to conduct
independent medical review of present and future occupational disability applications.
The independent medical evaluators must be RRB-approved physicians, not
specifically labor or management affiliates, who are familiar with railroad injuries.

The RRB currently has a nationwide contract with QTC [Management, Inc.] that
provides consultative examinations (CE) when requested by the RRB. The QTC
physicians are all either Board-eligible or Board-certified and are well-versed in the
necessary protocols required in the occupational disability program. These physicians
have no affiliation with either rail labor or rail industry.



Processing of Railroad Worker Disability Claims (A-05-09-29119)                           G-1
CEs will be ordered in present and future Long Island occupational disability cases
when it is clear that the applicant is not totally and permanently disabled, does not suffer
from a terminal illness or does not suffer from cancer. The usual procedure will be
followed when ordering a CE in these Long Island cases.

Recommendation 2: The RRB will develop and implement a program to re-evaluate
dubious disability claims. This program should create a mechanism that will allow for
more regular and frequent re-evaluations of disability annuitants.

The RRB currently has a program in place to review cases awarded an occupational
disability that is codified in the RRB’s regulations. The post section of the disability
division, which consists of the more experienced disability claims examiners, currently
conducts a continuing disability review (CDR) on employees receiving an occupational
disability annuity who are totally and permanently disabled for all work. The post
section will expand its review of occupational disability cases for Long Island retirees
and begin reviewing those Long Island cases where the employee is occupationally
disabled and not totally and permanently disabled. The disability staff will follow
procedures already in place when conducting these reviews.

Recommendation 3: The RRB will outline how it will institute greater oversight controls
over the Long Island regional RRB office and its employees.

The Board will direct the Director of Programs to assign the district manager of the
Newark office, who is the Network Manager over the Westbury office, to conduct on-site
quarterly office reviews. Additional[ly], the Network Manager will also conduct
scheduled biweekly telephone meetings with the Westbury district manager and her
staff to ensure that [the] office is operating efficiently.

Recommendation 4: The RRB will institute programmatic changes that will trigger
internal investigations into high numbers of particular ailment claims.

The Board will direct the Director of Programs to assign this task to the Director of
Assessment and Training, who will coordinate her efforts with the disability divisions and
any other unit she deems necessary. Her task will be, on an ongoing basis, to collect
data and analyze information that identifies the diagnoses of each pending and future
Long Island case to ascertain if there are any unusual patterns. The Director of
Assessment and Training will also be charged with analyzing relevant data collected
from the increased number of CDRs that will be conducted for those Long Island
employees who have been already awarded an occupational disability, as described in
our plan for Recommendation 2. The focus of these analyses will be on those cases
where the main diagnosis is degenerative arthritis but will also look for unusual patterns
involving other diagnoses as well.

Recommendation 5: The RRB will institute more stringent review of management
employees accessing the occupational disability program.




Processing of Railroad Worker Disability Claims (A-05-09-29119)                         G-2
The Board will direct the Director of Programs to assign this task to the Director of
Assessment and Training, who will coordinate her efforts with the disability division and
any other unit she deems necessary. Her task will be, on a continuing basis, to identify
those Long Island employees receiving an occupational disability annuity who retired
from the Long Island as non-bargaining managers, collect data and analyze this
information to ascertain if there are any unusual patterns in this area. This ongoing
effort will also apply to those individuals with pending applications as well as those who
file in the future.




Processing of Railroad Worker Disability Claims (A-05-09-29119)                        G-3
                                                                      Appendix H

Scope and Methodology
To accomplish our objective, we:

   Reviewed applicable laws, regulations and Social Security Administration (SSA)
    policies and procedures, including sections of SSA’s Online Handbook and Program
    Operations Manual System. We also reviewed applicable sections of the Railroad
    Retirement Act, Railroad Retirement Board (RRB) Handbook and RRB policies and
    procedures.

   Reviewed prior SSA and RRB Office of the Inspector General (OIG) and
    Government Accountability Office reports.

   Reviewed a sample of Joint Freeze, Unilateral Freeze, and occupational case files
    maintained by SSA and RRB to obtain a general understanding of the RRB and SSA
    disability claims process.

   Interviewed and held discussions at SSA with representatives from the Great Lakes
    Program Service Center’s Disability Processing Branch, Office of Financial Policy
    and Operations, Office of Quality Performance, and the Office of the Chief Actuary.

   Interviewed and held discussions at RRB with representatives from the OIG Office of
    Audit, Office of Programs and the Bureau of the Actuary to learn more about the
    railroad worker disability claims process.

This review did not entail a review of the (1) reliability of the SSA and RRB workload
counts or (2) internal controls related to the Financial Interchange. The SSA entities
reviewed were the Offices of the Deputy Commissioner for Retirement and Disability
Policy and the Chief Actuary. We performed our review in Chicago, Illinois, between
January and March 2009 in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




Processing of Railroad Worker Disability Claims (A-05-09-29119)
                                                                       Appendix I

OIG Contacts and Staff Acknowledgments

OIG Contacts
   Walter E. Bayer, Jr., Director, Chicago Audit Division

   Annette Dunn, Audit Manager, Chicago Audit Office

Acknowledgments
In addition to those named above:

   Lorrie Clement, Auditor-in-Charge

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-05-09-29119.




Processing of Railroad Worker Disability Claims (A-05-09-29119)
                          DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
